Ogunsula vs Staffing Now, Inc. LLC.
Case No. 19-83
Petition for Rehearing
U.S. Supreme Court

CERTIFICATE OF COMPLIANCE

Pursuant to Supreme Court Rule 33 and in compliance with 28 U.S. C. ยง 1746,
I hereby certify that this Petition For Rehearing to the U.S. Supreme Court, dated
November 25, 2019, complies with the type-volume limitation. According to
Microsoft Word, the Petition contains 1767 words and has been prepared in a
proportionally spaced typeface using Century Schoolbook font in 12 point size.

Dated this 25th day of November 2019,

Veronica W. Ogunsula, Pra Se
9801 Apollo Drive, #633^
Largo, Maryland 20792;
240-486-1427

